NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




     AUDIT OF NCUA’S ASSET MANAGEMENT
            ASSISTANCE CENTER


              Report #OIG-12-06
               March 19, 2012




             William A. DeSarno
             Inspector General


                Released by:




              James W. Hagen
           Deputy Inspector General
                                                  Table of Contents



EXECUTIVE SUMMARY................................................................................................. 1
  Results in Brief ............................................................................................................. 1
PROJECT OVERVIEW ................................................................................................... 3
  AMAC Background ...................................................................................................... 3
  Objectives .................................................................................................................... 3
  Overall Conclusions ..................................................................................................... 8
RESULTS IN DETAIL...................................................................................................... 9
  Asset Recovery ............................................................................................................ 9
     Norlarco and Huron River Analysis ......................................................................... 10
     Asset Recovery Findings ........................................................................................ 15
  Accounting Services .................................................................................................. 22
     Accounting Services Findings ................................................................................. 23
  Liquidation Services ................................................................................................... 30
     Liquidation Services Findings ................................................................................. 30




                                                                                                                                  i
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


EXECUTIVE SUMMARY

The Office of Inspector General (OIG) for the National Credit Union Administration
(NCUA) engaged Crowe Horwath LLP (Crowe), to independently conduct a
performance audit on its Asset Management Assistance Center (AMAC) to determine
the efficiency and effectiveness of:

   1. Policies/procedures and internal controls for the following areas:
         • asset recovery,
         • liquidations of member services, and
         • accounting services;
   2. Payments of share accounts including closing out the account or return checks
      that occur; and
   3. Valuation process and disposal of property and assets.

We performed our audit in accordance with audit standards contained in Government
Auditing Standards (GAS), issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.
Because of inherent limitations of an audit, together with the inherent limitations of
internal control, an unavoidable risk that some material misstatements or material non-
compliance may not be detected exists, even though the audit is properly planned and
performed in accordance with applicable standards. An audit is not designed to detect
error or fraud that is immaterial to the performance audit objectives.

We conducted the audit through a series of interviews, documentation reviews, and
detailed testing on a sample basis. We evaluated AMAC’s controls and processes
against standards and requirements for federal government agencies such as those
provided through The Committee of Sponsoring Organizations of the Treadway
Commission’s (COSO) internal control framework and the Office of Management and
Budget (OMB) Circular A-123 - Management's Responsibility for Internal Control.

Results in Brief

Our audit focused on the internal controls over the Asset Recovery, Liquidations of
Member Services, and Accounting Services divisions within AMAC including payments
of share accounts, closing out the account or returns checks that occur; and the
valuation process and disposal of property and assets. One of the main areas of focus
of our audit was related to the liquidations of Norlarco Credit Union (Norlarco) and
Huron River Area Credit Union (Huron). Considering this was a major focus of our audit
due to the size and complexity of these liquidations, we included a section in this report

                                                                                          1
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


analyzing the results of these liquidations. Based on our analysis, we found
deficiencies over the valuation process of real estate owned (REO) by AMAC.
Specifically, AMAC did not perform valuations on these properties in accordance with
industry standards and did not always maintain proper support for the valuations that
were completed. In addition, we determined AMAC did not formally complete a cost to
carry analysis on REO. We believe AMAC should have completed this type of analysis
as part of its determination regarding whether to sell or hold real estate.

The results of our tests indicated that, except for the findings identified in this report, in
all significant respects, AMAC’s (1) Policies/procedures and internal controls for the
following areas: (a) asset recovery, (b) liquidations of member services, and (c)
accounting services; (2) Payments of share accounts including closing out the account
or return checks that occur; and (3) Valuation process and disposal of property and
assets; were operating as intended by AMAC management. However, we determined
material weaknesses exist related to reo activities. The following provides a summary
listing of the findings identified during our audit. These findings are included in detail in
the Results in Detail section of this report.

Asset Recovery (AR):
   01 REO Valuation Support
   02 REO Valuation Documentation
   03 REO Cost to Carry Evaluations
   04 Reconciliations For Accounts with Attorneys
   05 Approvals For Disposed Assets
   06 Review of Servicer Auditor Report For Loan Provider

Accounting Services (AS):
   01 Segregation Of Duties of Cash Disbursements
   02 Liquidating Credit Union Reconciliations
   03 Timeliness And Documentation to Support Account Reconciliations
   04 Reconciliation Of Loans Between NCUA and Gila (Third Party Loan Service
      Provider)

Liquidation Services (LS):
   01 Liquidation Checklist Completion and Review
   02 Written Liquidation Procedures

We appreciate the effort, assistance, and cooperation management and staff provided
to us during this review.




                                                                                                 2
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


PROJECT OVERVIEW

AMAC Background

AMAC conducts credit union liquidations and performs management and recovery of
assets. Additionally, this office assists NCUA regional offices with the review of large
complex loan portfolios and actual or potential bond claims. Staff also participates
extensively in the operational phases of conservatorships and records reconstruction.

Objectives

Our objectives were to perform an independent audit to determine the efficiency and
effectiveness of AMAC’s:

           1) Policies/procedures and internal controls for the following areas: (a) asset
              recovery, (b) liquidations of member services, and (c) accounting services;
           2) Payments of share accounts including closing out the account or return
              checks that occur; and
           3) Valuation process and disposal of property and assets.

Scope and Methodology

We conducted this audit in accordance with performance audit standards contained in
Government Auditing Standards (GAS), issued by the Comptroller General of the United
States. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

Because of inherent limitations of an audit, together with the inherent limitations of
internal control, an unavoidable risk exists that some material misstatements or material
non-compliance may not be detected, even though the audit is properly planned and
performed in accordance with applicable standards. An audit is not designed to detect
error or fraud that is immaterial to the performance audit objectives.

In making our risk assessments, we considered those internal controls that were
significant within the context of the audit objectives in order to design audit procedures
that were appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of AMAC’s internal control environment. However, this
report communicates in writing to those charged with governance and management
concerning any significant deficiencies or material weaknesses in internal control
significant within the context of the audit objectives that we have identified during the
audit.

                                                                                             3
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


We have also obtained an understanding of internal control that is significant within the
context of the audit objectives. For internal control that is significant within the context
of the audit objectives, we have assessed whether internal control has been properly
designed and implemented. For those internal controls we deemed significant within
the context of the audit objectives, we performed tests of controls including testing
underlying transactions, as required by GAS standards, to evaluate the effectiveness of
the design and operation of controls. This report includes any deficiencies or other
matters involving internal control as required by GAS standards.

Our audit and work product are intended for the benefit and use of the NCUA only. The
audit was not planned or conducted in contemplation of reliance by any other party or
with respect to any specific transaction and is not intended to benefit or influence any
other party. Therefore, items of possible interest to a third party may not be specifically
addressed or matters may exist that could be assessed differently by a third party.

We conducted an audit of AMAC’s internal controls over asset recovery, liquidations of
member services, and accounting services - including payments of share accounts.
This included testing the closing out of shared accounts and testing returned checks.
This also included an analysis of the valuation process and disposal of property and
assets as described below.

We conducted our fieldwork from June 2011 through February 2012. We performed our
audit in accordance with generally accepted government auditing standards (GAGAS)
and audit standards promulgated by the American Institute of Certified Public
Accountants (AICPA). In order to conduct this audit, the engagement team performed
the following tasks:

   •   Held an entrance conference on-site at AMAC on June 20, 2011 to discuss the
       scope of the audit, identify key contact personnel, and to outline the planned
       schedule.

   •   Asset Recovery
           Obtained Policies and Procedures over Loan Management.
                 Reviewed Policies and Procedures and created a high level
                   process flow including loan acquisition, loan valuation, loan
                   processing (including payments and modifications), and loan sales.
                   We also reviewed the following processes: Lockbox, Loan
                   Servicing (Gila, other contracts, in-house), Loan Collections,
                   Collections (i.e. auction sales), Loan Modifications, and
                   Foreclosures.
                 Documented significant controls over each process.



                                                                                           4
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


                     Interviewed Management (and performed walk-throughs of process
                      where possible) to determine actual process performed for Loan
                      Management processes.
                     Determined whether differences exist between documented
                      policy/procedure and procedure described during
                      interview/walkthrough.
                     Assessed the current processes and controls for loan management
                      and determined any inefficiency in the process (e.g. duplicative
                      procedures, untimely procedures, unnecessary steps, etc...) and
                      any control deficiencies/gaps.
                     Performed tests of effectiveness of key control(s).

             Obtained Policies and Procedures Over Real Estate (RE) Management
                  Reviewed Policies and Procedures and created a high level
                    process flow including RE acquisition, RE valuation, RE
                    maintenance, and RE sales. Also reviewed the following
                    processes: monitoring of properties, valuation of properties, bulk
                    sales, rental properties (payment collections, credit worthiness of
                    renters, evictions, carrying costs), and remediation of drywall issue.
                  Documented significant controls over each process.
                  Interviewed management (performed walk-throughs of process
                    where possible) and documented actual process performed for RE
                    Management processes.
                  Determined whether differences exist between documented
                    policy/procedure and procedure described during
                    interview/walkthrough.
                  Assessed current processes and controls for the RE process and
                    determined any inefficiencies in the process (e.g. duplicative
                    procedures, untimely procedures, unnecessary steps, etc...) and
                    any control deficiencies/gaps.
                  Performed tests of the key control(s).

            Obtained Policies and Procedures for Other Assets obtained by the
             Division of Asset Recovery (DAR)
                  Determined that the policy covers key areas, was up to date and
                    was reviewed within the past year.
            Determined whether AMAC performed timely, independent, and supported
             reviews over reconciliations.
                  Through inquiry with management, documented the process
                    involved for performing account reconciliations.
                  Obtained and reviewed the Q4 2010 and Q1 2011 “Asset Acquired
                    Reconciliations,” “Accounts with Attorneys Reconciliations,” and the


                                                                                         5
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


                      January through May 2011 “Acquired Credit Unions
                      Reconciliations.”

   •   Liquidations of Member Services
           Obtained Policies and Procedures Over Liquidations:
                   Reviewed the Policies and Procedures and created a high level
                     process flow including on-site procedures, securing of assets,
                     selling of other assets (e.g. FF&E), handling liabilities, and
                     purchase and acquisitions.
                   Documented significant controls over each process.
                   Interviewed management (performed walk-throughs of process
                     where possible) to determine actual process performed for the
                     Liquidation processes.
                   Determined whether differences exist between documented
                     policy/procedure and procedure described during
                     interview/walkthrough.
                   Assessed current processes and controls for liquidations and
                     determined any inefficiency in the process (e.g. duplicative
                     procedures, untimely procedures, unnecessary steps, etc…) and
                     any control deficiencies/gaps.
                   Performed tests of effectiveness of key control(s).
           Determined whether liquidated credit unions were approved and were
              liquidated in a timely manner.

   •   Accounting Services
           Obtained policies and procedures relating to Accounting Services and:
                 Reviewed the Policies and Procedures and created a high level
                   process flow including on-site procedures, securing of assets,
                   selling of other assets (e.g. FF&E), handling liabilities, purchases
                   and acquisitions (P&A's), and valuation allowances for assets.
                 Documented significant controls over each process.
                 Interviewed management (performed walk-throughs of process
                   where possible) and determined actual process performed for the
                   Liquidation processes.
                 Analyzed whether differences existed between documented
                   policy/procedure and procedure described during
                   interview/walkthrough.
                 Assessed current processes and controls over accounting services
                   and identified any inefficiencies in the process (e.g. duplicative
                   procedures, untimely procedures, unnecessary steps, etc...) and
                   any control deficiencies/gaps.
                 Performed tests of key control(s).


                                                                                      6
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


           Determined whether general ledger (g/l) account reconciliations are
            performed timely and contain independent review.
           Determined whether journal entries are prepared and independently
            approved according to policy.
           Determined whether appropriate segregation of duties exists:
                 Through inquiry with management, determined who was
                   responsible for authorizing check disbursements, maintaining check
                   custody, and signing check disbursements (the disbursement
                   process).
                 Through inquiry with management, determined whether the
                   returned check process functions as intended.
   •   Payments of share accounts
           Determined whether checks are properly disbursed for closed accounts.
           Determined whether shared accounts suspected of fraudulent activity are
            not paid.
           On a sample basis, tested whether share payments are made to fictitious
            members of liquidated credit unions.
           Determined whether Credit Union system information is accurately input
            into AMAC's system

   •   Valuation and Disposal Process
           Determined whether management properly valuates and disposes of loans
              obtained from liquidated credit unions.
           Obtained a listing of loans sold from liquidated credit unions and on a
              sample basis tested for the following:
                  Determined whether management properly valued and recorded
                    accurately REO and Repossessed Assets.
           Reviewed management's analysis of properties obtained from Norlarco
              and Huron River Credit Unions and on a sample basis determined:
                  Whether the analysis was approved for maintaining the properties
                    individually versus selling them in a bulk sale.
                  Whether the cost benefit analysis used at the time of the decision
                    was effective and if this analysis was performed on an on-going
                    basis to determine the right mix of maintaining vs. selling the
                    properties.
           Determined whether any other assets were properly recorded.
                  Obtained a listing of assets held from liquidated credit unions.
                    Scanned the listing for significant assets that have not been tested
                    and ensured they were properly recorded.

   •   Held an exit conference on January 26, 2012, to discuss observations noted.



                                                                                      7
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


Overall Conclusions

The results of our review indicated that, except for the findings identified in this report, in
all significant respects, AMAC’s (1) Policies/procedures and internal controls for the
following areas: (a) asset recovery, (b) liquidations of member services, and (c)
accounting services; (2) Payments of share accounts including closing out the account
or return checks that occur; and (3) Valuation process and disposal of property and
assets; were operating as intended by AMAC management.




                                                                                             8
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


RESULTS IN DETAIL

We divided our report into three sub-sections – Asset Recovery, Accounting Services,
and Liquidation Services. Each subsection includes an introduction and a discussion of
our audit procedures and includes findings and recommendation(s) for that area, as well
as our overall conclusions based on the audit objectives.

Asset Recovery

AMAC’s Division of Asset Recovery is responsible for maintaining and liquidating assets
assumed from credit unions. This includes, but is not limited to, loans to members,
furniture, equipment, properties, etc. DAR utilizes a third party loan servicer for
maintaining member loans. As AMAC assumes assets such as loans, furniture, and
properties, DAR works to liquidate the assets to offset expenses related to the credit
union. This includes the entire process from obtaining the assets, valuating the assets,
and finding potential buyers. In addition, DAR utilizes attorneys for collection purposes
and any pending legal issues such as foreclosures for assets assumed through the
liquidations.

We performed procedures over Asset Recovery including obtaining and reviewing
written policies and procedures over loan management, real estate management and
other assets. We also performed walkthroughs of the loan, real estate, and other asset
processes. During these walkthroughs, we observed the actual procedures and
compared our results to AMAC’s written policies and procedures and noted any
differences or deficiencies. Based on these procedures, we noted that AMAC
management has procedures and controls in place over loan, real estate and other
asset management, but does not currently have strong procedures for valuing real
estate (see below for further discussion), reconciling accounts with attorneys
(Finding AR-05), or reviewing SAS 70 reports (Finding AR-08).

We also performed testing over the valuation and disposal of asset process. This
testing consisted of selecting a sample of loans sold from liquidated credit unions to
determine whether AMAC properly valued and accurately recorded REO and
Repossessed Assets. In addition, we performed testing to determine whether AMAC’s
analysis regarding whether to maintain the properties individually versus selling them in
a bulk sale had been approved, and if the cost benefit analysis used at the time of the
decision was effective. We also performed testing to determine whether AMAC
performed an analysis to determine the right mix of maintaining vs. selling the properties
on an on-going basis.

We determined that management's analysis regarding whether to maintain or sell the
properties located in Florida that were assumed with the liquidations of Norlarco and
Huron River Credit Unions, does not appear to be sufficiently comprehensive to support
management's decision to hold the properties (Findings AR-01 through AR-04). During
these procedures, we also determined that one disposed asset in our sample lacked the




                                                                                        9
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


proper approvals (Finding AR-06) and that other assets assumed during a liquidation
were improperly recorded (Finding AR-07).

Norlarco and Huron River Analysis

A major area of focus for this performance audit was over REO by AMAC. The largest
amount of REO resulted from the liquidation of two credit unions – Norlarco Federal
Credit Union (Norlarco) and Huron River Area Credit Union (Huron River) in 2008 and
2009 respectively. Therefore, this section includes an expanded write-up on these
properties and includes additional analysis of activity related to these properties from
liquidation through the date of this report. Overall, we determined AMAC
management’s analysis of whether to maintain or sell the properties located in Florida,
that were assumed with the liquidation of Norlarco and Huron River, did not appear to
be sufficiently comprehensive to support its decision to hold the properties.

As previously noted, NCUA liquidated Huron River and Norlarco in 2008 and 2009
respectively, which led to the assumption of approximately 1,741 properties located in
southwestern Florida. Both credit unions were involved in financing residential real
estate construction projects in this area creating both concentration risk and additional
risk from inadequate oversight and control of the construction financing. This
concentration and inadequate control was determined to be significant factors in the
NCUA placing each credit union into receivership.

In our analysis of the properties related to Norlarco and Huron River, we found these
properties carried a member value (outstanding loan amount) of $194.8 million and a
write down of that amount to a net book value of $93.2 million, resulting in a recovery of
47.8 percent. We also determined that AMAC management estimated they could
manage the loans at a cost of 59 percent of members’ value versus selling the loans at
only 32 percent of members’ value. However, when factoring in known expenses to
carry the properties of $27.3 million from the net book value of $93.2 million, the
estimated cost to manage the loans is reduced to 33.8 percent. This 33.8 percent,
however, does not take into account vandalism, theft, and outside contractor expenses,
which would further reduce this recovery percentage.

As a result of the receivership of each of these credit unions, and ultimate liquidations
and eventual assumption of properties, AMAC needed to determine a liquidation
strategy which would maximize the value obtained for the properties acquired. Upon
receipt of the properties, we learned that 861 properties were almost immediately used
to satisfy portions of loans that were participated in by other banks. By allowing another
bank or credit union to take possession of the properties, AMAC removed their interest
in the property and satisfied their portion of the obligation for those loans that were
assumed by AMAC. Per discussion with the Real Estate Analyst for AMAC, the
participating banks had an approximate 90 percent interest in these loans. After
satisfying the participating loans, AMAC was left with 880 properties, of which nearly 30
went through short sale and foreclosure auctions and were disposed of prior to AMAC
obtaining the rights to the properties.



                                                                                        10
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


Based on documentation reviewed, an estimated 850 properties remained with AMAC
that had a member value of approximately $194.8 million and carried a Net Book Value
at acquisition of $93.2 million (the amount that was recorded on the books). The net
book value was determined based on the lesser of cost (the member loan balance at
time of repossession) or net realizable value at time of assumption (market value less
anticipated costs to dispose), which was assumed to be 10 percent of market value.

Valuation of properties was determined by using a Broker Price Opinion (BPO)1 for a
sample of the properties located in the housing developments (of the 30 properties we
tested, 22 did not have documentation to support the valuation). Once AMAC believed
they had obtained sufficient knowledge on the value of the homes, they then estimated
the remaining home values based on previously received BPOs due to the similarities
between the properties.

AMAC identified a strategy they believed would maximize the value received for
disposition of the properties. In December 2007, AMAC proposed selling 100
properties related to Huron River Area Credit Union in a bulk sale. Information
related to this proposed bulk loan sale follows:

    •   The 100 loans carried a value of $25.5 million in which AMAC’s analysis
        concluded they could manage the loans along with their properties and
        collect 59 percent of the member’s value by liquidating the properties
        themselves.

    •   AMAC utilized a third party broker in order to gauge interest in the sale of
        these loans. The third party broker notified AMAC that out of 184 potential
        bidders that reviewed the offering information, 11 had submitted a final bid.
        The final bids ranged from 8.28 percent to 32 percent of the member’s value
        (member loan balance at time of liquidation).

    •   According to a December 17, 2007 memo from the President of AMAC to the
        Office of Examination and Insurance, AMAC believed that “continued AMAC
        management of these properties will result in a higher overall return to the
        NCUSIF.”

    •   Per AMAC management, AMAC also factored in how the bulk loan sale could
        potentially impact local credit unions with loans to borrowers and REO
        properties within the same geographic market and to the remaining value of
        the properties held by AMAC (though no quantitative analysis was provided).

    •   AMAC management concluded the bulk loan sale would significantly increase
        the supply of properties for sale within the market and drive the prices on
        their remaining homes further down.

1
 Broker Price Opinion is an estimated value of a property as determined by a real estate broker and is based on the
characteristics of the property being considered.




                                                                                                               11
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


    •   AMAC management determined that a bulk sale would lower housing prices
        within the market and ultimately devalue AMAC’s portfolio of remaining
        homes.

    •   AMAC management further indicated that a bulk sale could negatively impact
        the collection efforts of local market credit unions with residential real estate
        loans and foreclosed properties within the same market.

Due to these factors, AMAC rejected the high bid of 32 percent for the portfolio of
100 properties.

To date, AMAC has sold 409 of the approximately 850 properties originally taken
over as a result of the liquidation of Norlarco and Huron. The sales history is as
follows:

                                                                                  PERCENT OF
                      # OF                             AVERAGE        MEMBER         MEMBER
CALENDAR         PROPERTIES          S ALES (IN         S ALES     V ALUE (LOAN   V ALUE (LOAN
  YEAR             SOLD              DOLLARS )          PRICE        BALANCE)       BALANCE)
  2007               0                   $0               $0            $0            0.00%
  2008               16               2,788,929        174,308       4,099,848       68.03%
  2009              174              18,601,345        106,904      41,614,556       44.70%
  2010              163              15,045,648         92,305      37,125,489       40.53%
  2011*              56               4,609,780         82,318      12,919,794       35.68%
 TOTALS            409**            $41,045,702        $100,356    $95,759,687       42.86%
*Through June 30, 2011.
**Table does not include 4 properties that were obtained as REO.

The table above reflects the decline of the average sales price and the percent of
member value of the property held. This would appear to indicate that holding property
is losing value.

As of June 30, 2011, AMAC has sold 409 properties for a total of $41.0 million.
These properties had an estimated member value of $95.8 million, which resulted in
AMAC realizing 42.8 percent of the member’s value based on sales figures alone,
but does not factor in expenses incurred for the properties sold.

In addition, AMAC has received rental income and incurred maintenance and selling
costs during this period from 2007 through 2011. Based on information received,
the following tables indicate total rental income and expenses since 2007:




                                                                                            12
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06




                                          RENTAL INCOME (IN
                    YEAR
                                             DOLLARS )*
                    2007                                      -
                    2008                                $22,644
                    2009                             $1,027,435
                    2010                             $1,485,478
                   2011**                              $794,149
                   TOTAL                             $3,329,706
              ** Through June 30, 2011



                                              TOTAL M AINTENANCE AND
                         YEAR
                                                SELLING EXPENSES
                         2007                                ($520,000)
                         2008                             ($10,386,972)
                         2009                              ($8,130,728)
                         2010                              ($6,520,140)
                        2011**                             ($1,830,885)
                        TOTAL                             ($27,388,725)
               * Summary information provided by AMAC.   Detailed support has
               not been made available.
               ** Through June 30, 2011

In addition, AMAC received $8.3 million from a settlement related to these
properties from the liquidation of Norlarco and Huron River Credit Unions.

All remaining properties have seen further decline in value and experienced a large
amount of vandalism and theft. This can be determined by comparing the average
sales value in 2011 of $82,318 to all prior year average sales figures.

As a result, AMAC has hired an outside contractor responsible for inspecting the
homes on a rotational basis to identify any repairs and maintenance that needs to
be performed. In addition, AMAC also contracted with a property management
company to manage the properties held and rented out. The property management
company collects one half of the first month’s rent as their commission and works
with the tenants to collect rent and maintain the properties that are rented out.
Currently, AMAC is renting out approximately 220 of the 437 remaining properties.
The properties are rented out for an average of $800 per month per property, which
generates $176,000 in revenue per month, or slightly over $2.1 million per year.

AMAC maintains the properties not yet sold for around $9,000 annually, per
property, which includes the costs to make repairs as well as the real estate taxes.
This estimate is based on a sample of 30 properties for which support for
maintenance expenses were obtained. AMAC currently expects to sell the



                                                                                   13
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


remaining 437 properties over the next 2-3 years. Using a 3-year time frame to sell
the remaining properties, at an average sale amount of $82,000 (average sale price
in 2011), we estimate AMAC will sell the remaining properties for $35.8 million.
Since AMAC’s average holding time is one and a half years (based on consistent
sales over three years divided by 2), we believe they would incur additional
expenses of $5.9 million (at $9,000 per year per property multiplied by 1.5 years).

Therefore, based on the above figures and expected sales of $35.8 million (less
selling expenses of $2.8 million, or 7.7 percent of sales price based on 2011 sales),
and maintenance expenses of $5.9 million, we believe AMAC could reasonably
expect to realize approximately $27.1 million on the remaining 437 properties. With
a remaining member value of $99.1 million, this amounts to a 27.3 percent
realization on the remaining properties if sale and expense trends remained
constant. In addition, if AMAC were to rent out one half of the properties until
liquidation is complete, we estimate an additional rental income of $3.2 million (220
properties multiplied by $800 average monthly rental income multiplied by 18 month
average holding period). This results in an adjusted realized amount of $30.5
million, or 31 percent realization on the remaining properties.

As of June 30, 2011, we determined that sales from properties already sold totaled
$41.0 million, properties yet to be sold were estimated to be $35.8 million, past
rental income is $3.3 million, and future rental income is estimated to be $3.2
million. In addition to the $8.3 million settlement; we determined AMAC can expect
to gross $92 million from sales, rental income, and legal settlements related to the
properties located in Florida.

Total expenses related to these same properties includes $27.4 million already
incurred, $2.8 million in estimated future selling expenses and $5.9 million in
estimated future maintenance expenses for a total of $36.1 million.

Therefore, the net realized amount on Norlarco and Huron River properties obtained
is estimated at $55.9 million, or a 28.7 percent net realization on all properties
obtained through liquidation of Norlarco and Huron River credit Unions. This net
realization does not factor in time spent by internal AMAC resources over the years
related to these properties.

Based on activity to date and expected sales going forward, it appears that the
original return attainable by AMAC of 32 percent for the 100 properties that were
considered for bulk sale in 2007 exceeds the June 30, 2011 expected net realized
return of 28.7 percent.




                                                                                    14
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


Asset Recovery Findings

AR-01 REO Valuation Support

Condition
Based on the results of testing 30 properties held as REO and Repossessed Assets, we
determined AMAC management did not document the evaluation for 22 (73 percent) of
the properties at the time they were set up as REO. In addition, we noted that
management does not have a documented review process for appraisals over
$250,000. Per inquiry with management, AMAC stated that for non-Florida properties, a
BPO or appraisal for each property to support its NRV is obtained. AMAC also stated
that market information when the property is listed for sale is obtained and before a
property is listed for sale, approval is obtained from the AMAC official with delegated
authority. As part of this approval process, information such as the BPO, appraisal, and
other market information will be reviewed.

Criteria
When properties are transferred to REO, an appraisal or another form of valuation
should be obtained and documented to support the value being transferred to REO.
Appraisals for properties in excess of $250,000 should be reviewed and have the review
documented on an appraisal review form to support the review.

Cause
Division of Asset Recovery assumed a large number of properties in Florida from the
liquidation of Norlarco and Huron River Area Credit Unions. As a result, AMAC
obtained a large number of BPO for similar properties in the same area in Florida.
Based on these BPOs, DAR estimated the values of some properties without obtaining
new BPOs due to nearly identical properties that were obtained. However, we found no
documentation was maintained to show support as to what property was used or how
the value was determined for the properties identified in testing. AMAC management
also does not currently have a process in place to document review of appraisals
greater than $250,000. Furthermore, AMAC believes that the cost of obtaining
individual appraisals or BPOs for each REO property at the time of conversion to REO
outweighs the benefit of the information contained within the appraisals or BPO. BPOs
are currently ordered and reviewed prior to properties being listed for sale in order to
update values as necessary. For appraisals of a significant value, AMAC has a
documented review process in place.

Effect
Due to the fragile housing market, borrowers who receive a cancellation of debt as a
result of AMAC repossessing the asset affects the value of the property on AMAC's
records as well as the balance sheet because amounts reported for cancellation of debt
may be misstated without proper supporting documentation for the valuation of the
properties and review of the appraisals used to validate the anticipated value.




                                                                                      15
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


Recommendations
We recommend AMAC management:

   1. Obtain appraisals or document valuation of all properties transferred into Real
      Estate Owned to support the fair value being transferred to REO.

   2. Review and document all appraisals in excess of $250,000 to ensure that the
      appraiser is independent and to verify that the support for the valuation is
      adequate.

Management Response
Management agrees to capture more detailed documentation on the value of each
property transferred to REO. Management indicated they currently obtain a Broker
Price Opinion or appraisal for each property, or a Broker Price Opinion for
homogeneous properties. Management also agrees to formalize the review of
appraisals in excess of $250,000.

OIG Response
We concur with management’s planned actions




                                                                                        16
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


AR-02 Valuation Documentation

Condition
Management's analysis of whether to maintain or sell the properties located in Florida
and assumed with the liquidation of Norlarco and Huron River Credit Unions does not
appear to be sufficiently comprehensive to support management's decision to hold the
properties. Specifically, documentation to support the analysis was not available during
our site visit to support the valuation determined by AMAC on the Norlarco and Huron
River properties

Criteria
Management should document their analysis used to support their decision to maintain
properties versus selling them in a bulk sale.

Cause
Management's analysis did not appear sufficiently comprehensive to support whether or
not to sell or maintain the properties located in Florida.

Effect
Management may not have adequate information or analysis in order to make the best
decision if analysis is not sufficiently supported which may lead to financial loss.

Recommendation
We recommend AMAC management:

   3. Perform and document their analysis when determining whether to maintain
      properties versus selling them in a bulk sale, this would also include documenting
      potential financial outcomes for both options to support their decision making.

Management Response
Management agrees to more clearly document their decisions when determining
whether to maintain properties versus selling them in a bulk sale.

OIG Response
We concur with management’s planned action.




                                                                                      17
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


AR-03 REO Cost to Carry Evaluation

Condition
AMAC management does not complete a formal or comprehensive analysis of the cost
to carry REO property. Such an evaluation would allow management to analyze the
financial position of properties to assist in its determination of the best fiscal course of
action. In addition, this analysis could identify any properties that are outliers (have
higher costs than normal) which might suggest a different course of action is required.

Criteria
Credit Union industry standards dictate that evaluations of REO should be performed on
a periodic basis to determine the financial impact of holding the property as oppose to
selling the property or vice versa.

Effect
Not performing a formal financial analysis of REO property could result in management
making a decision related to REO that is not in the best financial interest of AMAC.

Cause
AMAC management has relied on information assessments of groups of properties to
determine whether to hold or sell a property or group of properties.

Recommendation
We recommend AMAC management:

   4. Formalize the cost to carry evaluation process for Real Estate Owned so that at
      any given point in time, management can analyze and compare market prices of
      a property to the cost to carry that property and determine whether to sell or hold
      the property.

Management Response
Management agrees to enhance the documentation and formalize the cost to carry
analysis performed at a macro level.

OIG Response
We concur with management’s planned action, so long as the cost to carry is applied to
each individual property.




                                                                                          18
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


AR-04 Accounts with Attorneys

Condition
AMAC management does not oversee the performance of reconciliation for accounts
with attorneys. From time to time, AMAC either directly or through external collectors,
will have accounts placed with attorneys for collection. AMAC will normally contract
with attorneys for collection work on a fee basis for hours worked.

Criteria
Depending upon the particular legal services agreement (LSA), attorneys are required
to submit periodic quarterly collection accountings of their contingency fee files, and
annual collection accountings of their hourly fee files (some current LSAs may not have
this requirement – all LSAs signed after June, 2006 should contain this provision). DAR
is responsible for comparing those reports to the AFTECH balances and collection
histories (DAS can provide a report of attorney accounts, by each attorney).
Documentation supporting the comparisons are forwarded to and retained by DAS,
along with any suggested correcting entries. The DAS director determines the proper
accounting entry for the correction.

Cause
No reconciliation is performed.

Effect
Not performing reconciliations for accounts with attorneys could result in misstatements
in loan balances not being identified by management.

Recommendation
We recommend AMAC management:

   5. Complete reconciliations for accounts with attorneys on a periodic basis, but at a
      minimum on a quarterly basis.

Management Response
Management agrees to periodically complete reconciliations for accounts with attorneys.

OIG Response
We concur with management’s planned action.




                                                                                      19
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


AR-05 Approvals for Disposed Assets

Condition
Approval for the disposition of REO was not documented for two properties (asset
number 248200029 and asset number 248200116)

Criteria
Approval for the Disposition of REO should be documented by an authorized individual.

Cause
AMAC management delegated authority for the sale of the first property, however
delegation was not documented to support that proper approval was obtained.
Management discussed the approval for the disposition of the second property though it
was also not documented to support that authorized approval was obtained.

Effect
The unauthorized disposition of REO may occur if proper approval is not obtained and
documented to support the approval.

Recommendation
We recommend AMAC management:

   6. Document the delegation of authority along with the actual approval for the
      disposition of all REO assets.

Management Response
Management agrees to continue to monitor and ensure approvals are fully documented
and maintained.

OIG Response
We concur with management’s planned actions.




                                                                                    20
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


AR-06 Review of Servicer Auditor Report for Loan Provider

Condition
There is no formal review of the Servicer Auditor Report [Statement of Auditing
Standards (SAS) 70 report or a SSAE 16 report which replaces SAS 70 during 2011] for
Gila, LLC (Gila) and no documented support for the users controls implemented. Gila is
a third party service provider for NCUA and handles the organization’s loans
maintenance and collections activities.

Criteria
An annual review of the Servicer Auditor Report should be performed for major service
providers to ensure accuracy of the information. User controls should also be
documented to ensure proper controls exist for accuracy of the information.

Cause
No SAS 70 review performed.

Effect
Not performing a review of Servicer Auditor Reports could result in material control
weaknesses of that service provider not being recognized and analyzed by AMAC
management and could result in necessary user controls not being identified and
implemented by AMAC.

Recommendation
We recommend AMAC management:

   7. Perform and document a review of Servicer Auditor Reports to ensure any
      material control weaknesses of that service provider are acknowledged and
      analyzed and to ensure that user controls are identified and in-place at AMAC.

Management Response
Management agrees to review Servicer Auditor Reports noting that a report had been
completed and the review documented.

OIG Response
We concur with management’s actions taken and planned.




                                                                                       21
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


Accounting Services

AMAC’s Division of Accounting Services (DAS) is responsible for recording activity that
occurs within AMAC. DAS receives information obtained from liquidated credit unions
from AMAC’s Division of Liquidation of Member Services (DLMS). DAS then uploads
the information on to their system and maintains credit union activity thereafter on
AMAC’s system. At this point, DAS is also responsible for cash receipts,
disbursements, reconciliations and accounts payables related to each liquidated credit
union.

At liquidation, DAS receives the liquidated credit unions’ member account information
and generates all of the checks to be disbursed to the members based on the
liquidation memo. As accounts payable become due, they also draft the checks for
disbursement to the necessary parties related to the liquidated credit unions. Payments
may relate to expenses, share payouts, and asset purchases. DAS also generates
subsequent journal entries related to the credit unions. In addition, if AMAC receives
cash receipts, DAS is responsible for tracking and forwarding the checks to the lockbox
for deposit.

We have performed procedures over Accounting Services including obtaining and
reviewing written policies and procedures over the major financial processes including
securing of assets, selling of other assets (e.g. FF&E), handling liabilities, purchases
and acquisitions (P&A's), valuation allowances for assets, account reconciliations and
journal entries. We also performed walkthroughs of these processes. The actual
procedures observed during these walkthroughs were compared to the written policies
and procedures and any differences or deficiencies were noted. Based on these
procedures, we noted that overall AMAC has procedures and controls in place over
accounting services, but noted that procedures for performing reconciliations between
AMAC’s records and those of the third party service provider (GILA) were not
documented and formalized (Finding AS-05).

In addition, we also performed testing over account reconciliations, journal entries and
payments of share accounts. This testing consisted of selecting a sample of account
reconciliations and journal entries to determine if they were performed timely and
contained an independent review. Our testing also entailed selecting a sample of
payments of share accounts to determine checks were properly disbursed for closed
accounts, that shared accounts suspected of fraudulent activity are not paid, share
payments were not made to fictitious members of liquidated credit unions and that
Credit Union system information is accurately input into AMAC's system.

Based on our testing procedures, we determined the following:

   •   AMAC does not have complete segregation of duties over cash disbursements.
       However, AMAC does have a mitigating control whereas Mellon bank compares




                                                                                       22
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


           on a daily basis a report from NCUA containing all official checks to the checks
           cleared (Finding AS-01).

      •    AMAC did not always perform timely and properly supported reconciliations.
           Specifically, nine out of the 15 reconciliations we reviewed were performed
           between three days to one and one-half months after the deadline. 2 In addition,
           five out of 15 reconciliations were completed in 2010 and did not have checklists
           that were consistently completed with dates and sufficient documentation of
           preparation and/or review. Also, reconciling items between $95 million and $97
           million that should be formally documented on a monthly basis, did not have
           proper support or a detailed explanation on the face of the reconciliation, nor
           were bank deposits reconciled to mail logs and cash receipts. Although we
           determined all reconciliations were completed with no errors, we found that they
           should be completed more timely and provide better documentation to support
           the reconciliation and reconciling items (Finding AS-03).

      •    Four out of 30 returned/voided checks we tested did not have proper
           documentation to support that a stop payment was placed on the check or that
           the check had been voided.

      •    Although we understand the difficult and complex nature of assuming a credit
           union, which often includes incomplete accounting records, we identified two
           credit unions assumed by the NCUA that did not have reconciliations completed
           in a timely manner after liquidation, approximately five months and two months
           after liquidation, respectively.

Accounting Services Findings

AS-01 Segregation of Duties Over Cash Disbursements

Condition
During our procedures over cash disbursements, we determined the same individual
that can sign expense checks also has the authority to approve payment for these
checks. In addition, during our expense check testing, we determined that the Financial
Analyst in DAS is responsible for signing the majority of the expense checks issued.
Also, we found there is no requirement for dual signatures such as the one included in
the Shared Payout process (where all checks over $100,000 require dual signatures),
therefore one person is able to sign all checks of any amount.

Contradictory to written procedures, we determined two employees other than the DAS
Director have access to unused check stock - the Accounts Payable Clerk and the
Assistant Bookkeeper. Each of these employees is provided a small amount of unused
check stock because they print checks on a regular basis. In addition, the DAS Director
has custody of checks and also has signing authority which is a segregation of duties
2                                                                  th
    The DAS checklist requires reconciliations be performed by the 20 of each month.




                                                                                              23
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


concern as fraudulent checks could be issued without another party's approval or
review.

As a mitigating control, Mellon bank compares on a daily basis a report from NCUA
containing all official checks to the checks cleared. Any discrepancies are emailed to
the DAS Financial Analyst who then has the authority to approve the payment of any of
these checks.

Criteria
Sound internal controls dictate that organizations should maintain segregation of duties
over cash disbursements whereas the employee signing checks should not have any
ability to authorize the payment on those checks especially those which the bank is
investigating for official approval. In addition, per Policy 755 in AMAC’s Policy manual
dated December 15, 2010, check stock is to be kept in locked facilities, accessible by
the DAS director.

Cause
The approval process for expense checks is performed through an automated database
which allows approvers to authorize transactions in their queue. These approvals are
logged by the system and per the client this serves as a control which compensates for
the lack of requirement of dual signatures. The AP clerk is aware of the approval levels
for checks which she issues, therefore, she also serves as a control point to detect any
checks which have not been properly authorized by the correct individuals or have only
been authorized by the Financial Analyst. However, once the checks have been issued,
the Financial Analyst has the authority to approve the payment of checks which may be
detected as "unofficial".

Effect
In the event that collusion exists or an oversight on the part of the AP clerk occurs,
checks could be authorized and signed by the Financial Analyst. In addition, the
existing control which Mellon bank performs daily of the payment on possible "unofficial"
checks could be circumvented since the approval of these payments go to someone
with signing authority as well. Therefore, this could increase the risk of the payment of
fraudulent checks. The Accounts Payable Clerk and the Assistant Bookkeeper do not
have signing authority; therefore, the risk of inappropriate issuance of a check is
minimized. However, having multiple people with access to unused check stock
increases the likelihood that unauthorized checks can be issued.

Recommendations
We recommend AMAC management:

   8. Ensure all unused check stock is properly controlled in a locked facility.

   9. Ensure access to check stock is limited to one individual with the potential for
      delegation when that individual is out of the office.




                                                                                         24
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


Management Response
Management indicated they plan to amend their policies to allow accounts payable staff
to maintain a small inventory of check stock to process daily operations, noting that
other than the small number of checks provided to accounts payable staff, the check
stock is limited to one individual.

OIG Response
We do not agree with management’s planned actions. Management’s planned actions
not only weaken internal controls over check stock, despite maintaining records of the
check stock provided to staff or having the entire stock audited, but also does not
control unused check stock through use of a locked facility.




                                                                                     25
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


AS-02 Liquidating Credit Union Reconciliations

Condition
Two credit unions assumed by the NCUA through liquidation, NYC OTB Federal Credit
Union liquidated February 23, 2011 and Hmong American liquidated May 18, 2011, did
not have reconciliations completed as of July 19, 2011, which was approximately five
and two months, respectively, subsequent to the liquidations. In addition, a written
procedure or standard does not exist to indicate a deadline for the completion and
review of reconciliations performed for liquidations.

Criteria
Reconciliations for liquidated credit unions should be performed in a timely manner.
Procedures should indicate a standard deadline for these reconciliations which should
be followed for all liquidations and the cause for any deviations from the timely
completion of the reconciliations should be documented.

Cause
Per the DAS Director, due to the complex nature of the two liquidations noted, and the
possible involvement of fraud and/or missing documentation, these reconciliations could
take months.

Effect
Not performing timely reconciliations for liquidating credit unions increases the likelihood
that irregularities within the credit union would not be found or not be found timely in
order to investigate and resolve the issue.

Recommendation
We recommend AMAC management:

   10. Develop and institute a procedure that includes a standard timeline to complete
       reconciliations for liquidating credit unions and requires documented reasons for
       any untimely completion.

Management Response
Management agrees to update its procedures to include a standard timeline completion
date and additional narrative for exceptions on cases outstanding beyond the
benchmark date.

OIG Response
We concur with management’s planned action.




                                                                                         26
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


AS-03 Timeliness and Documentation to Support Account Reconciliations

Condition
Monthly reconciliations for major subsidiary ledgers and bank accounts are not
performed in a timely manner and do not consistently contain explanations and/or
sufficient support for reconciling items. Specifically, we noted:

   •   Nine out of the 15 reconciliations reviewed were performed between three days
       to one and one-half months after the 20th deadline.
   •   Five out of the 15 reconciliations were for 2010 at which time the report review
       checklist was not consistently completed with dates and sufficient documentation
       of preparation and/or review.
   •   Reconciling items between $95 million and $97 million, for the three months
       reviewed, did not have proper support or detailed explanation on the face of the
       reconciliation.
   •   Lastly, during the monthly reconciliation process, bank deposits are reconciled to
       mail logs and cash receipts, however, this process is not formally documented on
       a monthly basis.

Criteria
Accounting Services personnel are supposed to perform reconciliations by the 20th of
the following month according to the report review checklist, which the Division of
Accounting Services uses to document the dates of preparation and review for
reconciliations. In addition, reconciling items should contain sufficient explanation and
support for larger amounts on the reconciliation. Lastly, the reconciliation of deposits to
mail logs and cash receipts as described in the Accounting procedures should be
documented on a monthly basis to display the results of this reconciliation.

Cause
Due to various factors, specifically depending on areas of need in the business,
reconciliations may not always be performed timely by the 20th deadline. In addition,
the explanation and confirmation of reconciling items may be discussed within AMAC
internally without being fully documented on the face of the reconciliation.

Effect
The untimely completion of reconciliation as well as the lack of documentation
surrounding reconciling items could lead to inaccurate or untimely information.

Recommendations
We recommend AMAC management:

   11. Ensure that the Division of Accounting Services performs reconciliations by the
       20th of each month as set by the Division of Accounting Services checklist.




                                                                                         27
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


   12. Ensure that reconciling items are explained and documented sufficiently on the
       face of the reconciliation.

   13. Ensure reconciliations are documented to mail logs and that cash receipts are
       reconciled to bank deposits and are included with the bank reconciliations on a
       monthly basis.

Management Response
Management agreed with the recommendations and acknowledged that timely
reconcilements are important and that AMAC continuously works with NCUA’s Office of
the Chief Financial Officer to ensure timely completion. Management also indicated
they would expand the explanation on extremely large reconciling items and will
evaluate the value of consolidating reconciliations.

OIG Response
Although management agreed with the recommendations, management did not
completely address each of the three recommendations to ensure (1) reconciliations are
completed by the 20th of each month, (2) all reconciling items are explained on the face
of the reconciliation (not just extremely large reconciling items), and (3) reconciliations
are documented to mail logs and bank deposits and are included with the monthly bank
reconciliations, rather than evaluating the value of consolidating them. The OIG will
follow up in six months to determine what specific actions have been taken to address
these recommendations.




                                                                                         28
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


AS-04 Reconciliation of Loans Between NCUA’s Records and Gila’s


Condition
During our on-site visit, we noted that NCUA’s records and Gila’s records contained
differences in loan balance information for approximately 700 loans.

Criteria
Sound internal controls dictate that reconciliations should be performed between an
organization’s record and those of its service provider to help ensure that provider is
properly accounting for and maintaining financial data.

Cause
During our review, we learned the Division of Accounting Services was in the process of
reconciling the system. However, none of the reconciliations were completed between
the two systems. Per inquiry with AMAC, it is believed that the majority of the
differences are due to timing for posting payments between AMAC and Gila.

Effect
Not completing timely reconciliations between internal loan balances records and those
of the third party service provider could result in errors to loan balances not being
detected by AMAC management.

Recommendation
We recommend AMAC management:

   14. Ensure the Division of Accounting Services performs and documents
       reconciliations between internal loan balances and those of the third party
       service providers, with any differences noted during the completion of the
       reconciliations investigated and resolved.

Management Response
Management agrees and indicated they have reconciled with the third party servicer
since the inception of the relationship. A reconcilement was completed as of December
2011, differences were resolved and a process was established to correct any future
differences in a timely manner.

OIG Response
We concur with management’s actions taken and planned.




                                                                                          29
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


Liquidation Services

AMAC’s Division of Liquidation of Member Services (DLMS) is responsible for the
beginning of the overall liquidation process. DLMS executes liquidation orders by
sending an individual to designated credit unions and securing all assets on site. They
notify credit union employees of the events that are taking place and obtain credit union
records and belongings to bring back to AMAC’s office. DLMS then drafts the
liquidation memo to be sent to DAS outlining how customer accounts are to be
reimbursed and distributed. If liquidation is performed under a purchase and acquisition
with a third party, the employee from DLMS works with the third party to have the assets
transferred to their possession.

We have performed procedures over the DLMS including on-site procedures, securing
of assets, selling of other assets (e.g. FF&E), handling liabilities, and purchase and
acquisitions. We also performed walkthroughs of these processes. We compared the
actual procedures observed during these walkthroughs to AMAC’s written policies and
procedures and noted any differences or deficiencies. Based on these procedures, we
determined that overall; AMAC has procedures and controls in place over the DLMS,
but does not currently have one consolidated liquidation manual. AMAC used several
documents, some of which the manuals were outdated. In addition, we noted that a
formal liquidation checklist was not consistently used. Specifically, we sampled ten
liquidated credit unions and noted a checklist was not provided for three out of the ten
credit unions.

In addition, we also performed testing to determine whether liquidated credit unions
were approved and were liquidated in a timely manner. Based on these procedures, we
identified no exceptions during our testing.

Liquidation Services Findings

LS-01 - Written Liquidation Procedures

Condition
Multiple documents contain procedures and those procedures are only advisory in
nature. Current procedures, including Examiners Guide to On-site Liquidation
Procedures (NCUA Publication Oct 2001), Involuntary Liquidation and Payout
Procedures, and Research Desktop Procedures, are used by analysts as reference
only, and only to the extent they don’t contradict policy.

Criteria
Sound internal controls dictate that policy and written procedures exist and are
communicated to affected employees.

Cause
Based on a communication from the Director of the Division of Liquidation and Member
Services and from discussion with management, AMAC policy and procedures are in



                                                                                      30
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


the process of being rewritten. Once this project is completed, those procedures will
replace the procedures existing now, which are recognized by management as not
being comprehensive. The project of rewriting the policy and procedures has been in
process since before January 2010.

Effect
Without consistent and enforced policy and procedures, there is increased risk that
employee turnover would result in the process being performed incorrectly. There is
also increased risk that controls in the process are missed due to inconsistent
approach.

Recommendations
We recommend AMAC management:

   15. Consolidate in a comprehensive manner, all existing procedures to remove any
       conflicting or redundant information.

   16. Include references to procedures in the policy, with approval by management
       (with greater authority than the highest level employee bound by policy)
       documented on an annual basis.

   17. Ensure all existing procedures are communicated and made available to all
       employees.

Management Response
Management agrees in principle with the recommendations and noted they are in the
process of converting AMAC policies and procedures into NCUA’s “instruction” format.
Management also indicated that as updates are made, they are formally communicated
to staff and training is provided if necessary.

OIG Response
We concur with management’s actions taken and planned.




                                                                                        31
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


LS-02 On-site Liquidation Checklist

Condition
We determined three out of ten liquidated credit unions in our sample had on-site
liquidation phases. Only one of the three had a completed on-site checklist and none of
the three had any evidence that a review was performed for the completeness of the
checklist documentation. For seven out of ten liquidations in our sample, there was no
evidence that a timely review was performed for the compensatory two-month
documentation checklist. This review was performed in batches in June 2011 for
liquidations as far back as August 2010.

Criteria
Sound internal controls dictate that a review for required documentation should be
completed timely. Current policy refers to an on-site checklist, and has an example
attached. Current procedure relies on a documentation checklist completed at the two-
month point. A check for required documentation should be performed and
documented for all liquidations with timely review.

Cause
According to the Director of the Division of Liquidation and Member Services,
completion of the checklist is not required by policy and is used by the Liquidation
Analysts as a tool at their discretion, with each Analyst modifying the checklist for
his/her use depending on the needs of the job. The two-month checklist is intended to
serve the same purpose, to ensure documentation is complete within a timeframe in
which missing documents could reasonably still be gathered. Completion of this
checklist is not mentioned in policy either. There is no evidence that the two-month
checklist is reviewed in a timely manner. The Director, DLMS, took over this
responsibility in January 2011, and has not caught up. For a standardized checklist to
be effective, it should be well-worded, prioritized, and broken out by type of liquidation.
The checklist should be driven by policies and procedures, which are in the process of
being updated and standardized. Checklists should be identified in policy and reviewed
in a timely manner. In addition, AMAC management believes that the experience level
of the liquidation analysts is sufficient that a checklist would not be required and reviews
of said checklist would not be necessary.

Effect
Without a consistent checklist and a timely review, necessary steps in the on-site
liquidation process may be overlooked. Without a timely review, documentation missing
from the liquidation files may not be noticed before the opportunity to gather the affected
documents has passed, leading to incomplete documentation of the liquidation.




                                                                                         32
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


Recommendations
We recommend AMAC management:

   18. Develop a standardized liquidation policy that is prioritized, clear, and complete.

   19. Ensure the two-month documentation checklist be codified and attached in policy
       and reviewed by management for completeness as soon as possible, within two
       months of completion, or sooner depending on circumstances of the liquidation,
       with signatures from preparer and reviewer.

Management Response
Management agrees liquidation process policies are needed. In addition, management
agrees to incorporate the two month checklist into their policy.

OIG Response
We concur with management’s planned actions.




                                                                                         33
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06


Appendix A – Management Response




                                                     34
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06




                                                     35
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06




                                                     36
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06




                                                     37
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06




                                                     38
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06




                                                     39
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06




                                                     40
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06




                                                     41
Audit of NCUA’s Asset Management Assistance Center
OIG-12-06




                                                     42
